Appendix B




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




  Inspection Report

 Review of Security at the Strategic
 Petroleum Reserve




 DOE/IG-0693                                  June 2005
   •   Similarly, the Strategic Petroleum Reserve’s deadly force policy may not be consistent
       with the Reserve’s critical infrastructure designation.

   •   Opportunities exist for some protective force performance tests to be more realistic; often
       the threat level (Security Condition) is elevated for certain tests, which provides for
       additional protective force personnel to defend the site during the tests. Performance
       tests are used to evaluate the effectiveness of protective forces in response to various
       threats.

The report included several recommendations designed to enhance physical security at the
Reserve.

MANAGEMENT REACTION

Management concurred with our findings and recommendations and identified corrective actions
that are planned or have been initiated. Management’s comments are provided in their entirety
in Appendix B to this report.

We found management’s comments to be responsive to our recommendations.

Attachment

cc: Deputy Secretary
    Chief of Staff
    Acting Assistant Secretary for Fossil Energy
    Director, Office of Security and Safety Performance Assurance
    Project Manager, Strategic Petroleum Reserve
    Director, Office of Independent Oversight and Performance Assurance
REVIEW OF SECURITY AT THE STATEGIC PETROLEUM
RESERVE




TABLE OF
CONTENTS



              OVERVIEW

              Introduction and Objective       1

              Observations and Conclusions     2


              DETAILS OF FINDINGS

              Insider Threat                   3

              Deadly Force Policy              4

              Performance Tests                5


              RECOMMENDATIONS                  7


              MANAGEMENT COMMENTS              7


              INSPECTOR COMMENTS               7


              APPENDICES

              A. Scope and Methodology         8

              B. Management Comments           9
Overview

INTRODUCTION    The Office of Inspector General initiated an inspection of
AND OBJECTIVE   security at the Department of Energy’s (DOE) Strategic Petroleum
                Reserve (SPR). The SPR is the United States’ emergency
                stockpile of crude oil and was established in response to the 1973-
                1974 oil embargo. The reserve currently stores approximately 695
                million barrels of oil in underground salt caverns located in
                Louisiana and Texas. The SPR represents a national investment of
                over $40 billion including facilities and the value of the crude oil at
                today’s prices.

                DOE designated that the SPR has a “National Security Critical
                Essential Function” in response to Homeland Security Presidential
                Directive 7 (HSPD 7), “Critical Infrastructure Identification,
                Prioritization, and Protection,” March 30, 2005. Specifically, the
                Department concluded that SPR was a part of the Department’s
                critical infrastructure and is a key resource for national energy and
                economic security. SPR serves “as the Nation’s first line of
                defense against an interruption in petroleum supplies and as a
                national defense fuel reserve.” Therefore, any disruption in the
                ability of SPR to provide emergency crude oil may have an
                adverse impact on the Nation’s economy and security.

                Each SPR site has a security force managed by Pinkerton
                Government Services, Inc. (Pinkerton), a subcontractor to DOE’s
                prime SPR managing contractor, DynMcDermott Petroleum
                Operations Company (DynMcDermott). SPR crude oil is stored in
                deep underground salt domes which would, according to SPR
                officials, minimize access to the oil by potential adversaries.
                However, protection of the infrastructure required to extract the oil
                and supply it to commercial pipelines is dependent upon the
                security apparatus at each of the SPR sites, primarily, armed
                protective force personnel. DOE is not responsible for security of
                the commercial pipelines beyond SPR site boundaries.

                The objective of this inspection was to evaluate aspects of physical
                security at the SPR.




Page 1                                              Review of Security at the
                                                    Strategic Petroleum Reserve
OBSERVATIONS AND   We concluded that additional measures could be implemented to
CONCLUSIONS        improve physical security of the SPR sites. Specifically, we found
                   that:

                   •   The level of protection against the “insider threat” at the sites
                       may not be commensurate with the designation of the Reserve
                       as a part of the Department’s critical infrastructure.

                   •   Similarly, the Strategic Petroleum Reserve’s deadly force
                       policy may not be consistent with the Reserve’s critical
                       infrastructure designation.

                   •   Opportunities exist for some protective force performance tests
                       to be more realistic; often the threat level (Security Condition)
                       is elevated for certain tests, which provides for additional
                       protective force personnel to defend the site during the tests.
                       Performance tests are used to evaluate the effectiveness of
                       protective forces in response to various threats.




Page 2                                               Observations and Conclusions
Details of Findings

INSIDER THREAT        The level of protection against the “insider threat” at SPR sites
                      may not be commensurate with SPR’s designation as part of
                      DOE’s critical infrastructure.

                      An “insider” is described in the DOE Design Basis Threat as
                      anyone with authorized, unescorted access to DOE facilities and
                      programs. The insider threat could entail the use of violence or
                      physical force; active support to outsiders by direct participation in
                      a terrorist or subversive act; and/or passive support to outsiders by
                      simply supplying infrastructure or other important information.
                      These insiders, particularly those with access to critical areas,
                      could disrupt SPR facilities based on their knowledge of SPR
                      security systems, technical areas, or data management.

                      During our inspection, we determined that a number of permanent,
                      full-time SPR employees did not possess security clearances. We
                      found that 87 percent of DynMcDermott and its support services
                      subcontractor employees at various SPR field sites, some with
                      unescorted access to sensitive areas, had never been processed for
                      any level of security clearance. We were told that this was because
                      they do not access classified information. As a result, these
                      employees have never undergone a Federal background
                      investigation. We found that DynMcDermott does complete
                      pre-employment investigations on all of its employees. However,
                      the DynMcDermott pre-employment investigation did not include
                      Federal law enforcement or intelligence record checks nor did
                      DynMcDermott conduct any rechecks on employees once hired.
                      Such checks and rechecks are required for most Department of
                      Energy contract employees.

                      Homeland Security Presidential Directive 12 (HSPD 12), “Policy
                      for a Common Identification Standard for Federal Employees and
                      Contractors,” was issued in August 2004. HSPD 12 requires
                      Executive departments to establish secure and reliable forms of
                      identification for employees and contractors. We were told by a
                      Department security policy official that DOE is in the process of
                      devising a plan to implement HSPD 12 through issuing new
                      security access badges to employees, including at the SPR.
                      According to the security policy official, DOE’s HSPD 12 plan
                      will, when implemented, require a minimum level of Federal
                      background investigation in connection with the issuance of access
                      badges. However, the issuance of new access badges is not set to
                      begin until late 2005. Therefore, an important component of DOE
                      fulfilling its responsibilities under HSPD 12 will be ensuring that,
                      as part of DOE’s critical infrastructure, the SPR is protected



Page 3                                                                Details of Findings
               against insiders through a vetting process prior to allowing
               unescorted access by employees.

DEADLY FORCE   The Department’s deadly force policy refers to the ability of site
POLICY         protective force personnel to legally use deadly force to fulfill their
               protective force responsibilities. We concluded that the deadly
               force policy implemented at SPR may not be consistent with the
               Reserve’s designation as part of DOE’s critical infrastructure.

               The Department’s response to HSPD 7 identified SPR as a critical
               infrastructure/key resource that is inherently attractive to terrorists.
               However, current Federal regulations may not provide sufficient
               authority to the SPR protective force to protect the Reserve given
               the critical nature of its mission.

               The guidelines followed by the SPR protective force governing use
               of deadly force are specified in 10 Code of Federal Regulations (10
               CFR) Part 1049 – Limited Arrest Authority and Use of Force by
               Protective Force Officers of the Strategic Petroleum Reserve. Part
               1049 provides for the use of deadly force to protect personnel.
               Guidelines followed by Security Police Officers (SPOs) for the
               protection of nuclear facilities, which are also designated by DOE
               as critical infrastructure, are specified in 10 CFR Part 1047 -
               Limited Arrest Authority and Use of Force by Protective Force
               Officers, pursuant to the Atomic Energy Act, § 161(k). Part 1047
               provides for use of deadly force to protect personnel and property
               (nuclear weapons, nuclear explosive devices, and/or special
               nuclear material).

               DOE had designated its nuclear facilities and the SPR as part of its
               “critical infrastructure.” Yet, we found that the authority to use
               deadly force at these facilities was inconsistent. Specifically, the
               SPR protective force had the authority to use deadly force only for
               protection of personnel. They were not authorized to use deadly
               force to protect the SPR infrastructure, the oil caverns, and the
               facilities which allow removal of the oil from the caverns to
               commercial pipelines for distribution. The information available
               to us indicated that the decision as to whether to use deadly force
               in the event of a terrorist attack on the SPR is currently left to
               individual SPR protective force officers. Under the current
               formulation, the protective force officer must decide at what point
               an attempt to destroy or damage the SPR infrastructure constitutes
               a danger to personnel. Then, and only then, can deadly force be
               used.




Page 4                                                           Details of Findings
              In the post 9-11 period, we concluded that this policy should be re-
              evaluated, especially given SPR’s designation as part of the
              Department’s critical infrastructure.

PERFORMANCE   We found that opportunities exist for some of the protective force
TESTS         performance tests to be more realistic. Performance testing
              requirements are outlined in DOE Order 473.2, “Protective Force
              Program.” Performance testing consists of various types of tests
              administered to protective force personnel, such as force-on-force
              exercises, to realistically evaluate the readiness of protective forces
              to defend DOE and its critical infrastructure. Performance tests
              verify the effectiveness of protective force programs, identify and
              provide training for personnel, identify areas requiring system
              improvements, validate implemented improvements, and motivate
              protective force personnel.

              Additionally, DOE Manual 473.2-2, “Protective Force Program
              Manual,” Chapter IV, “Training and Qualification,” states that
              “The formal training and qualification program must . . . include
              valid performance-based testing to determine and certify job
              readiness (i.e., qualification).” Further, Chapter VII of the Manual
              entitled “Performance Testing,” indicates that exercises are used to
              test the overall effectiveness of all elements in response to the
              DOE Design Basis Threat and site-specific threats.

              We interviewed 53 SPOs at various locations throughout SPR who
              expressed a number of concerns regarding security performance
              tests at the Reserve. The most important concern related to the
              increase in security level during the tests which had the effect of
              providing additional protective force personnel. Other expressed
              concerns related to scenarios being unrealistic and repeated
              annually without changes and incorrect use of simulated
              helicopters and explosives. We were told that controllers/
              observers wear bright orange vests and that SPOs can easily
              observe those vests and deduce information about the pending
              attack location. Also, we were told protective forces and adversary
              forces stand next to each other before mock battles and hear the
              instructions given to each other.

              As part of the inspection we observed several force-on-force
              performance tests at one SPR site. Part of the testing included
              raising the threat level security condition thereby increasing the
              number of the protective force on duty to defend the site during the
              tests. This observation confirmed the concern that had been
              expressed to us by protective force personnel.



Page 5                                                         Details of Findings
         We discussed this matter with SPR officials who were aware of the
         practice. They acknowledged that most of the performance testing
         of the specific type we observed is done at the elevated security
         condition. They said that, although they do test at lower security
         condition levels, raising the security condition allows them to test
         the “worst case” scenario. They contended, as well, that the testing
         is more cost effective since it allows more SPOs to be included in
         the exercise at one time.

         While we recognized the points made in discussions with SPR
         officials, we remained skeptical as to whether the approach being
         taken ensures that the tests are as realistic as possible. We noted
         that there had not been an independent security review at the SPR
         in several years. We concluded that the question of performance
         test methodology should be subjected to such a review. This report
         includes a recommendation to this effect.




Page 6                                                 Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Secretary for Fossil Energy, in
                  coordination with the Director, Office of Security and Safety
                  Performance Assurance:

                  1. Determine whether the DOE implementation of HSPD 12 will
                     ensure a minimum level of Federal background investigation
                     for all uncleared personnel having unescorted access to
                     sensitive areas within the SPR. If so, ensure that HSPD 12 is
                     implemented at the SPR in a timely manner. If not, then
                     determine if a minimum Federal background investigation
                     should be required immediately for all uncleared personnel
                     having unescorted access to sensitive areas within the SPR.

                  2. Review the current authorities provided to SPR protective force
                     officers and determine whether current authorities provide for a
                     sufficient level of protection for the SPR, given its status as a
                     critical infrastructure. If not, revise the authorities, as
                     appropriate.

                  We recommend that the Project Manager, Strategic Petroleum
                  Reserve:

                  3. Review the realism of SPR performance tests and ensure the
                     tests adhere to DOE regulations for realistic evaluation of
                     protective forces.

                  We recommend that the Director, Office of Independent Oversight
                  and Performance Assurance (OA), in view of the designation of
                  SPR as a critical infrastructure:

                  4. Evaluate whether OA should review protective force
                     performance testing programs at SPR; and

                  5. Consider performing a comprehensive review of SPR security.


MANAGEMENT        Management concurred with all the recommendations. We have
COMMENTS          included management’s comments in their entirety as
                  Appendix B.

INSPECTOR         Management’s comments were responsive to the
COMMENTS          recommendations.




Page 7                                                     Recommendations
                                          Management and Inspector Comments
Appendix A

SCOPE AND     The Office of Inspector General initiated an inspection of
METHODOLOGY   security for the protection of Department of Energy resources at
              the Strategic Petroleum Reserve. We identified and reviewed
              applicable Federal and DOE regulations and conducted a limited
              physical inspection of site locations. We interviewed DOE and
              contractor officials and reviewed key documents applicable to the
              inspection.

              Also, pursuant to the “Government Performance and Results Act
              of 1993,” we reviewed SPR’s performance measurement processes
              as they relate to security.

              This inspection was conducted in accordance with “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 8                                               Scope and Methodology
Appendix B




Page 9       Management Comments
Page 10   Management Comments
Page 11   Management Comments
Page 12   Management Comments
                                                                    IG Report No. DOE/IG-0693

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
